<html>
<title> - NATO'S WARSAW SUMMIT AND THE FUTURE OF EUROPEAN SECURITY</title>
<body><pre>[Joint House and Senate Hearing, 114 Congress]
[From the U.S. Government Publishing Office]







114th Congress                                 Printed for the use of the
2nd Session              Commission on Security and Cooperation in Europe
_________________________________________________________________________


                  NATO'S WARSAW SUMMIT AND THE
                   FUTURE OF EUROPEAN SECURITY
                 








[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                       JUNE 23, 2016
                       
                       
                       
                       
                       
                                Briefing of the
         Commission on Security and Cooperaion in Europe
_________________________________________________________________________

                           Washington: 2016
                           
                           
                           
                           
                           

   






  234 Ford House Office Building
                                                   Washington, DC 20515
                                                           202-225-1901
                                                    <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3350405056735e525a5f1d5b5c4640561d545c45">[email&#160;protected]</a>
                                                    http://www.csce.gov
                                                          @HelsinkiComm

                                       Legislative Branch Commissioners

              HOUSE                                 SENATE
CHRISTOPHER H. SMITH, New Jersey       ROGER WICKER, Mississippi,
ALCEE L. HASTINGS, Florida                Co-Chairman
ROBERT B. ADERHOLT, Alabama            BENJAMIN L. CARDIN. Maryland
MICHAEL C. BURGESS, Texas              JOHN BOOZMAN, Arkansas                
STEVE COHEN, Tennessee                 RICHARD BURR, North Carolina   
ALAN GRAYSON, Florida                  JEANNE SHAHEEN, New Hampshire
RANDY HULTGREN, Illinois               TOM UDALL, New Mexico       
JOSEPH R. PITTS, Pennsylvania           SHELDON WHITEHOUSE, Rhode Island
LOUISE McINTOSH SLAUGHTER, 
          New York
                       
         
                      Executive Branch Commissioners

                        Department of State
                        Department of Defense
                        Department of Commerce
                        
                                  III)
                                  
                                  


      ABOUT THE ORGANIZATION FOR SECURITY AND COOPERATION IN EUROPE






    The Helsinki process, formally titled the Conference on Security 
and Cooperation in Europe, traces its origin to the signing of the 
Helsinki Final Act in Finland on August 1, 1975, by the leaders of 33 
European countries, the United States and Canada. As of January 1, 
1995, the Helsinki process was renamed the Organization for Security 
and Cooperation in Europe (OSCE). The membership of the OSCE has 
expanded to 56 participating States, reflecting the breakup of the 
Soviet Union, Czechoslovakia, and Yugoslavia.
    The OSCE Secretariat is in Vienna, Austria, where weekly meetings 
of the participating States' permanent representatives are held. In 
addition, specialized seminars and meetings are convened in various 
locations. Periodic consultations are held among Senior Officials, 
Ministers and Heads of State or Government.
    Although the OSCE continues to engage in standard setting in the 
fields of military security, economic and environmental cooperation, 
and human rights and humanitarian concerns, the Organization is 
primarily focused on initiatives designed to prevent, manage and 
resolve conflict within and among the participating States. The 
Organization deploys numerous missions and field activities located in 
Southeastern and Eastern Europe, the Caucasus, and Central Asia. The 
website of the OSCE is: <www.osce.org>.


  ABOUT THE ORGANIZATION FOR SECURITY AND COOPERATION IN EUROPE




    The Commission on Security and Cooperation in Europe, also known as 
the Helsinki Commission, is a U.S. Government agency created in 1976 to 
monitor and encourage compliance by the participating States with their 
OSCE commitments, with a particular emphasis on human rights.
    The Commission consists of nine members from the United States 
Senate, nine members from the House of Representatives, and one member 
each from the Departments of State, Defense and Commerce. The positions 
of Chair and Co-Chair rotate between the Senate and House every two 
years, when a new Congress convenes. A professional staff assists the 
Commissioners in their work.
    In fulfilling its mandate, the Commission gathers and disseminates 
relevant information to the U.S. Congress and the public by convening 
hearings, issuing reports that reflect the views of Members of the 
Commission and/or its staff, and providing details about the activities 
of the Helsinki process and developments in OSCE participating States.
    The Commission also contributes to the formulation and execution of 
U.S. policy regarding the OSCE, including through Member and staff 
participation on U.S. Delegations to OSCE meetings. Members of the 
Commission have regular contact with parliamentarians, government 
officials, representatives of non-governmental organizations, and 
private individuals from participating States. The website of the 
Commission is: <www.csce.gov>.



                                  (iii)


                  NATO'S WARSAW SUMMIT AND THE
                  FUTURE OF EUROPEAN SCURITY
                  
                                  ___________
                                

                                June 23, 2016


                                                                Page
                              PARTICIPANTS

Alex Tiersky, Policy Advisor, Commission on Security and 
Cooperation in Europe......................................      1
Jonas Weschler, Senior State Department Advisor, Commission 
on Security and Cooperation in Europe .....................     15
Maciej Pisarski, Deputy Chief of Mission, Embassy of the 
Republic of Poland to the United States of America ........      3
Dr. Hans Binnendijk, Senior Fellow, SAIS Center for 
Transatlantic Relations ...................................      6
Rear Admiral Peter Gumataotao, Deputy Chief of Staff, 
Strategic Plans and Policy, Allied Command Transformation, 
North Atlantic Treaty Organization ........................      9

                                APPENDIX

Prepared Statement of Maciej Pisarski .....................     23
Prepared Statement of Dr. Hans Binnendijk .................     27


                                     (IV)
                                     
                                     
 
                          NATO'S WARSAW SUMMIT AND THE
                          FUTURE OF EUROPEAN SECURITY
                              ----------                              

                             JUNE 23, 2016

            Commission on Security and Cooperation in Europe
                                Washington, DC


    The briefing was held at 3 p.m. in room 2360, Rayburn House Office 
Building, Washington, DC, Alex Tiersky, Policy Advisor for the 
Commission on Security and Cooperation in Europe, moderating.
    Panelists present:  Maciej Pisarski, Deputy Chief of Mission, 
Embassy of the Republic of Poland to the United States of America; Hans 
Binnendijk, Senior Fellow, Center for Transatlantic Relations; and Rear 
Admiral Peter Gumataotao, Deputy Chief of Staff, Strategic Plans and 
Policy, Allied Command Transformation, North Atlantic Treaty 
Organization.

    Mr. Tiersky. Ladies and gentlemen, welcome. On behalf of the 
Helsinki Commission Chairman Chris Smith, welcome to our briefing on 
the upcoming NATO Summit in Warsaw.
    My name is Alex Tiersky. I cover political, military and security 
issues for the Helsinki Commission, which formally is known as the 
Commission on Security and Cooperation in Europe.
    We all know that NATO in general, and this summit in particular, is 
of special interest to the Hill for obvious reasons that we'll talk 
about throughout this briefing. I think your presence here demonstrates 
that, despite the fact that I think this is the third event that's 
NATO-related on the Hill today, I'm thrilled to see you all here. Thank 
you for coming. I think that speaks to our illustrious guests.
    We are fortunate to have three extremely distinguished panelists to 
go through the subject with us and enlighten us. Our first speaker will 
be Mr. Pisarski, the deputy chief of mission from the Polish Embassy in 
Washington; Dr. Hans Binnendijk from the Center for Transatlantic 
Relations; and finally, Rear Admiral Gumataotao from NATO Allied 
Command Transformation.
    Before I give them the floor, I'd like to frame the discussion with 
a few comments of my own, if I could.
    To start with, a few words about the Helsinki Commission. We are a 
U.S. Government agency that promotes human rights, military security 
and economic cooperation in 57 countries in Europe, Eurasia and North 
America. We like to say it's from Vancouver to Vladivostok. Nine 
commissioners are members of the Senate, nine are from the House of 
Representatives, and three seats are reserved for executive branch 
officials. The Commission just celebrated its 40th birthday on the 3rd 
of June, just one year after the 40th anniversary of the Helsinki Final 
Act.
    Now, the Commission--those of you who know the Commission well are 
probably quite familiar with its work on human rights issues. I'd just 
like to emphasize that the Commission also actively monitors security 
issues. We've done hearings and briefings on issues as diverse as 
Russian noncompliance with the various commitments and arms control 
agreements that it's undertaken. We've had hearings and briefings on 
combating terrorism and illegal arms transfers, and issues as specific 
as OSCE police training.
    But, of course, part of our remit also has to do with issues beyond 
the OSCE space, including the NATO agenda. And in particular, our 
members have taken a particular interest over the years in NATO 
enlargement. Again, we've had briefings and hearings on the subject of 
NATO enlargement. Our Commission chairmen have given speeches on the 
floor of the House and Senate in support of various NATO-aspirant 
countries. And through the Commission, our commissioners have the 
opportunity to meet with the leaders of some of the aspirant countries.
    So all of these reasons are why our chairman, Chris Smith, asked me 
to organize this briefing here today. And again, I'm thrilled to see 
you.
    Ladies and gentlemen, the next NATO Summit will take place on the 
8th and 9th of July in Warsaw, Poland. This is an absolutely key moment 
in the region, as anyone who follows European security even passingly 
will tell you. Russian actions, including but not limited to their 
illegal occupation of Crimea and the ongoing intervention in eastern 
Ukraine, have severely undermined the European security order and made 
the Warsaw meeting exceptionally important. Indeed, the security 
challenges posed by Russian aggression are a threat to all of its 
neighbors, as well--and in particular of concern to the summit's Polish 
hosts along with other allies, of course. Moreover, many of these 
challenges in this new European security context are somewhat new to 
NATO, ranging from cyberattacks to disinformation campaigns and other 
aspects of what Russia refers to as hybrid warfare.
    At the same time, NATO allies are facing challenges emanating from 
the south, with a key manifestation obviously the migration crisis; and 
from the southeast, the ongoing conflict in Syria. And hanging over all 
of these challenges, of course, is the specter of international 
terrorism and the challenge of the so-called Islamic State.
    We see the Warsaw Summit as an opportunity to make sure that the 
alliance remains as vital, relevant and unified as ever. The agenda for 
the summit that has been publicly discussed is very wide ranging, as 
our experts will tell you. But from my perspective, it essentially 
boils down to one question: Will the 28 heads of state and government 
be able to reconcile their competing interests and make decisions in 
Warsaw that go some way to meeting the security needs of all allies in 
these turbulent times?
    So, again, let me pass the floor over to our distinguished 
panelists and give them a brief introduction. I certainly won't spend 
time detailing all of their impressive accomplishments.
    Our first speaker comes to us from the Polish Embassy. Mr. 
Pisarski, as I've said, is the deputy chief of mission there. He's 
served in that capacity since August of 2010. And, sir, we are thrilled 
to have you here presenting the perspective of the host country, and I 
should mention, one of the few allies that is meeting the NATO target 
of spending 2 percent of GDP on defense. Thank you for being here.
    Our second speaker will be Dr. Hans Binnendijk. Dr. Binnendijk is a 
senior fellow at the SAIS Center for Transatlantic Relations, who has 
served with distinction in a number of governmental positions. But as 
he and I were discussing before the panel, something we like to bring 
up here is, he was a legislative director for the Senate Foreign 
Relations Committee. So he's a Hill guy, as far as we're concerned. 
[Laughter.]
    Dr. Binnendijk. That was 40 years ago. [Laughs.]
    Mr. Tiersky. Known internationally as a leading expert on NATO and 
security more broadly, I think you'll all be interested to hear that he 
was one of the lead co-authors for a study by five different Washington 
think tanks together called ``Alliance Revitalized.'' And there are 
copies of this on the table out front if you missed it.
    And last, but certainly not least, we are honored to have a senior 
leader from NATO's Allied Command Transformation, Rear Admiral Peter 
Gumataotao. Admiral Gumataotao is a career surface warfare officer with 
deployments all over the world. He's been awarded the Defense Superior 
Service Medal, the Legion of Merit, the Meritorious Service Medal, and 
other personal, unit and campaign awards. He was also the recipient of 
the first Admiral Zumwalt Award for Visionary Leadership in 2001. Sir, 
thank you for being here to present the NATO perspective.
    Now, I also need to present someone else on our panel here: my 
colleague at the Commission, Jonas Wechsler. He is the senior State 
Department advisor and resident Russia expert for us. He's a career 
Foreign Service officer with an extremely distinguished series of 
postings. He comes to us directly from Moscow.
    Mr. Pisarski, if you could, please start by providing us your 
perspective. Thank you.
    Mr. Pisarski. Thank you very much, Alex. And thank you very much, 
ladies and gentlemen, for coming for this meeting. I am very honored 
and pleased to be in a panel with distinguished experts on security 
issues who know about those issues much more than I do. But I thought 
it would be, for me, very important to present some thoughts, some 
outlines of the event that is going to take place in capital of my 
country, in Warsaw.
    I have prepared remarks, and the copies are available. I won't read 
them, it would probably exceed the 10 minutes that I have been 
allocated for my presentation. So I encourage you to refer to those 
remarks after the meeting.
    We in Poland are both very thrilled and happy with hosting the 
gathering of the NATO countries and representatives of NATO Alliance, 
and at the same time very worried and concerned about the security 
environment in which the summit takes place. And, Alex, you have really 
described those challenges, so I won't go into that.
    We would like that the summit underlines, really, the unity, 
solidarity, values and freedom that NATO stands for. And it should 
strengthen the security of all NATO members--not only one group of 
members, but indeed all members. That means the NATO Summit should 
tackle not only those threats and challenges coming from the east or 
the north or the south, but it should deal with them in their entirety.
    The starting point for the decisions that are going to be taken, 
and we hope they are going to be taken, is reflecting on the previous 
summit in Newport that set out very important reassurance measures in 
the face of Russia's aggressive behavior. Let me just briefly remind 
you of the most important aspects of those.
    Those measures provided for an increase of NATO Response Force and 
the creation of a brigade-sized high-readiness spearheaded force at its 
core; setting up additional small headquarters in the eastern part of 
our alliance, including in Poland; enhancing Multinational Corps 
Northeast, and establishing in Poland one of those commanding posts; 
and basically boosting exercises by providing the continuous presence. 
Everything that has been decided in Newport as part of the so-called 
Readiness Action Plan has been gradually implemented, and that plan--
the Action Plan--also provided for the Very High Readiness Joint Task 
Force, which has been a very valuable instrument to strengthen the 
security for the east and for the south. And that, the so-called 
Newport package, is a starting point. And we believe that in Warsaw the 
alliance should take some steps further in terms of providing for a 
greater defense and deterrence.
    Our approach to the decisions that hopefully will be taken in 
Warsaw, they rest on the concept of forward military presence. That 
presence should be militarily meaningful, should be multinational, and 
should be really adequate to the challenges--should provide for a 
continuous presence and have deterrence for our alliance. When it comes 
to the so-called eastern flank, we are hoping for four battalions being 
deployed in each of the Baltic States and one in Poland. The exact 
modalities of those are being still discussed, but the goal of it is to 
deter and provide additional capabilities for defense of our countries, 
especially in the early stages of a possible aggression.
    In addition to the NATO-discussed measures, I think it's very 
important to mention the U.S. contribution. That would be the 
quadrupling resources for European Reassurance Initiative, and then 
there's been some talk about deploying an Army Brigade Combat Team--and 
needless to say that Poland would be happy to host that brigade and its 
headquarters. And that brigade should also come with the newest combat 
equipment. And also, there was a discussion about deploying the Army 
pre-positioned stock, and Poland would be also very much interesting in 
hosting at least part of it.
    The bottom line here is that those troops who are going to be 
deployed on the eastern flank should be combat ready, should be 
fighting troops. Of course, they should continue doing what has been 
done--I mean, exercising and training, increasing our defense 
capability, but there should be a kind of detectable and significant 
shift from the reassurance measures that was the kind of highlight of 
the Newport Summit into the more deterrence that should be, in our 
opinion, a highlight of the Warsaw Summit.
    There are important developments regarding missile defense. Only a 
few weeks ago, there was a groundbreaking ceremony to construct the 
third phase of the European Phased Adaptive Approach that is building 
the U.S. Aegis Ashore base in Poland, in Redzikowo. And that came after 
the opening of the Aegis Ashore base in Romania.
    We would like to see even greater progress with regard to NATO 
missile defense, which has been decided by NATO as its core mission 
related to the collective defense. Hopefully, that progress will have a 
form of declaring initial operational capability. But I think that this 
program is a good indicator how NATO is trying to keep up with the 
changing nature of the challenges for our security, and definitely the 
proliferation of missile technology has been one of those challenges.
    As I said, we should tackle all the threats and challenges for all 
neighbors, and the southern direction will be also a very important 
part of our discussions in Warsaw. NATO has been providing support for 
Turkey, and also has been active in providing support for trying to put 
out more effective efforts related to the immigration crisis.
    In Warsaw, we would look forward to enhancing our cooperation with 
the European Union. And of course--I mean, it sounds like a no-
brainer--EU and NATO memberships are overlapping to a large extent--not 
perfectly, but to a large extent. Both organizations share the same 
core values and they have their unique capabilities. And when we think 
about issues like hybrid threats, cyber and others, I think that the 
co-cooperation with the European Union and NATO should provide for an 
important boost to our collective defense capabilities, as I said, 
especially in the fields of those new threats, which are called hybrid, 
and also in the sphere of maritime situation awareness, basically 
providing for better training and development of mutually supportive 
capabilities.
    Very briefly, about NATO and Russia. This issue has been one of the 
highlights in the recent time, and then no one will deny that Russia 
was, and is, and will be a very important factor in our thinking about 
security. And we all would prefer that Russia would have a sincere 
partnership with NATO. But as we said before, through its conduct and 
behavior, Russia has demonstrated that it's really not prepared for 
such a deep and genuine partnership. Nevertheless, a dialogue with 
Russia is important, but it should not be the end in itself. Dialogue 
should be a means to achieve a greater predictability, to avoid 
potential incidents with using some military equipment in quite a 
reckless fashion. And that dialogue should also demonstrate NATO's 
unity and resolve to stick to its principles and values, but definitely 
should not substitute for things that we should do in fields of 
deterrence and developing our defense capabilities. So deterrence and 
dialogue, not deterrence through dialogue, if I might put it that way.
    Very briefly, we will be also talking about how to beef up our 
cooperation with the partners. And we have multiple partners, and the 
cooperation with them depends really very much on their particular 
security interest. That would be different interest for countries like 
Sweden or Finland, with whom we share the Baltic region, and all those 
things that are taking place on those partners like Georgia, and 
Ukraine and Moldova should also receive a very important signal from 
the alliance to continue it and develop the cooperation. And of course, 
our partners in the Gulf and Middle East are very important to tackle 
those challenges stemming from that region.
    We look forward to Montenegro's membership in NATO, and I believe 
we can talk about this more during our conversation. The bottom line 
here is that this move really validates and reconfirms the validity of 
the open-door policy, and that's very profound.
    One minute about Poland's contribution. Poland has been a NATO 
member since 1999. And from that moment on, we have participated in 
numerous NATO operations--or maybe not NATO operations, but coalitions 
of the willing. We have been very active in providing for the air 
policing for the Baltic States, and also for Romania and Bulgaria. 
Poland also volunteered as one of the framework countries for the VJTF 
forces, this Very High Readiness Joint Task Force. We have been very 
engaged in exercises, not only in Poland but also outside. We have just 
hosted one of the biggest exercises recently, 32,000 troops 
participating, so-called Anakonda exercises. Poland is spending more 
than 2 percent of its GDP on defense and 20 percent on technical 
modernization, and soon will be joining other members of the global 
coalition against ISIL with four F-16 planes, which would conduct a 
surveillance and intelligence-gathering mission. We will also send a 
group of 60 trainers for the Iraqi forces.
    And I will stop here. Thank you.
    Mr. Tiersky. Thank you, Mr. Pisarski. That was a very wide-ranging 
description of what your expectations are for Warsaw, but I think you 
gave us some of your bottom lines up front, as we say here. I heard 
very clearly when you say what you're seeking is unity, solidarity, and 
a values-based alliance. I also heard you say, the main goal is to 
strengthen the security of all NATO members. And I took those two as 
key points.
    Before I pass the floor to Dr. Binnendijk, I did just want to 
recognize Ambassador Archil Gegeshidze of Georgia, who has joined us. 
Thank you very much for being here, sir.
    Dr. Binnendijk, if you would? Thank you.
    Dr. Binnendijk. Thank you, Alex.
    You mentioned in the introduction that many years ago I worked at 
the Senate Foreign Relations Committee. And I was reflecting that I 
joined the Committee in 1977, almost 40 years ago. And at that point, 
way on the side of the dais, on the Democratic side, was very young 
senator named Joe Biden; and way on the other side was very young 
Republican senator named Dick Lugar. And between Lugar and Biden, they 
cared very deeply about the alliance. There was a consensus, in those 
days, about the alliance. I don't think anybody at that point would 
have said the alliance is obsolete, but now we're hearing that. The 
alliance is not obsolete today. It's anything but obsolete. It's 
needed, in my view, more today than at any time since the end of the 
Cold War.
    The alliance has problems. Europe has problems. There's the rise of 
nationalism, of populism. We'll find out by the end of today what kind 
of state the EU is in after the Brexit vote. But the leadership of the 
alliance is trying to manage these changes. The alliance has a history 
of adapting to strategic change, and they're doing it again. We saw 
that at the Wales Summit, where very clear statements were made about 
the nature of the Russian threat and steps--preliminary steps were 
taken to deal with it. There remains a fairly large gap between the 
pace of change in these challenges and the institutional changes that 
are made to deal with it. Some of that gap was closed at Wales, and I 
think at the Warsaw Summit we have an opportunity to close the gap even 
further.
    What I'd like to do is to sketch out seven areas where I think the 
alliance can make progress at the Warsaw Summit. I'll just touch on 
them with a couple of comments for each, and then maybe we can leave 
the rest open for the discussion.
    The first--and this really echoes Maciej's comments--the most 
important is to maintain unity within the alliance. There are 
centrifugal forces playing within the alliance. You go to Italy and you 
talk about the Russian threat, and they just don't really--that's not 
what they're focused on. So this is a job for American leadership. We 
have to focus on maintaining unity in the alliance. Part of this is 
rhetoric. Part of it is living up to pledges that we've made. But it is 
probably the single most important thing, in my view, to do at the 
summit.
    The second--and you also mentioned this--is moving from what we 
call reassurance of allies to deterrence. What we saw at the Wales 
Summit was reassurance. And what that really meant, as you suggested, 
was dealing with rapid reaction forces. They have now been built. It's 
pretty much implemented. But in the couple of years since Wales, it's 
also become pretty clear that that's inadequate for deterrence; that a 
second and I would argue a third step needs to be taken to really 
maximize deterrence and move from reassurance to deterrence.
    The second step, which I do think we're going to make serious 
progress on at Warsaw, is forward deployment. We will have a decision 
at the summit to forward deploy four--in fact, it's already been 
announced--four multinational NATO battalions: one in each of the three 
Baltic States, and one in Poland. This will be a German lead for one, a 
British lead for a second, an American lead for the third, and 
hopefully a Canadian lead for the fourth. This really enhances 
deterrence.
    In addition to that, the United States, under the European 
Reassurance Initiative, has just quadrupled its budget for this. We 
used to have four brigade combat teams in Europe. We went down to two, 
and now we're working our way back up to four again. We have a third 
that will be there, heel-to-toe rotations, and a fourth--we're going to 
be pre-positioning their equipment. One can argue about where they're 
going to be deployed and whether they should be more forward, but this 
is happening, and this is a good thing. So all of this is part of a 
move from reassurance to deterrence.
    The last thing we need to do--and I think we need to find a hook 
for this at the Warsaw Summit--the real weakness here is the inadequate 
ability for Europe to deploy follow-on forces. This is especially 
ground forces. It is really inadequate, and we need to push on this. 
And we can use the Warsaw Summit to do that. I see that as a 
deliverable in the summit after Warsaw. So that's number two.
    Number three has to do with assuring credible nuclear deterrence 
and continuing with the good progress we've made on missile defense. 
You mentioned the latter.
    First, on nuclear deterrence, the real problem here is Russia, 
frankly. They have roughly 10 times the number of non-strategic nuclear 
weapons than does the alliance. And it's difficult for the alliance in 
today's political atmosphere to talk about nuclear issues, but we need 
to do it. We need to do it, because not only is Russia modernizing 
dramatically and moving its forces around, but they have a very 
dangerous nuclear doctrine right now. We need to come to grips with 
that.
    I think already there is some good news here that I think will come 
out of Warsaw. Our own deterrent is heavily reliant on dual-capable 
aircraft. They're getting older. The readiness is not all that good. 
And there will be a major effort to increase readiness and reliability 
of those so-called DCA, dual-capable aircraft. So that'll be good news, 
I hope, coming out of Warsaw.
    And then the other element of this is missile defense. This is very 
much on track. We're going to have initial operating capability for a 
major chunk of this announced at Warsaw. This is basically to deal with 
the Iranian missile threat. Even though there is a nuclear deal with 
Iran, which I fully support, they're still going forward with their 
missile programs. And this is what that's about, it's to counter that. 
This is on track, and we need to keep it on track. So that's number 
three.
    Number four is we need to create what I would call a new southern 
strategy for the alliance. And this is kind of difficult for a number 
of reasons. The alliance has been engaged, as we all know, in a number 
of areas in the south: Afghanistan, training for Iraq, and certainly 
the operation in Libya.
    But the problem is that many of those operations haven't gone so 
well. There is reluctance, both in the United States and in Europe, to 
engage fully with ground forces in these areas. So you have that 
reluctance. You have growing threat.
    And then you have on the part of many nations a desire actually not 
to have NATO take the lead in these operations. You see that with 
French operations in North Africa. You see it with the Italians in 
Libya. And you see it with the United States in the counter-ISIL 
operations. It's not a NATO operation.
    So the question is, what role does NATO play in all of this? And 
that needs to be decided. We need to have a better concept. The 
alliance leaders now talk about projecting stability. That's a great 
concept, but we have to actually figure out what it means.
    Now, there will be some things that we'll find in Warsaw that will 
be helpful. We're going to maintain four NATO bases in Afghanistan, 
which will be able to support larger forces. We will see NATO training 
of Iraqi forces moving from Jordan to Iraq. We will see NATO AWACS 
flying operations against ISIS, which is a big deal. I have a feeling 
we're going to see a coalition operation run by the Italians in Libya. 
Where does that go? What's the NATO role? We have to pursue that. There 
are a couple of maritime things. The United States is going to be 
participating more actively in the Aegean. And NATO is going to be 
operating in the middle of the Med with Operation Sophia, the EU-run 
operation.
    So you can see here that there are elements of a southern strategy. 
But it hasn't been put together. And that's what we need to do, I 
think, next.
    Number five: We have to maximize societal and defense resilience. 
This is about Article 3 of the Washington Treaty, which talks about 
self help and individual capacity. So resilience may be the key word, 
or one of the key words, coming out of this summit. There will be 
commitments to enhance resilience on the parts of nations, so they're 
going to take a larger role. But one of the things that we have been 
pushing for the last year, year and a half, is the notion of having 
NATO take a more active role in resilience. I mean, this is anything 
from crisis management to border guards to cybersecurity, to create 
what we have been calling resilience support teams that can deploy to 
the Baltic states, for example, if they need support. And as I 
understand it, the summit is likely to agree to create something like 
that.
    There will be a move with regard to cyber resilience at the summit. 
And I believe that cyber will be considered now as a separate military 
domain, which could have some very interesting long-term consequences 
for the alliance. It could mean eventually a cyber headquarters in the 
alliance, and it could mean more aggressive cyber operations, both of 
which are good things in my view.
    Number six--you mentioned this--we need to maintain the open door. 
Montenegro will be invited in--formally--at the summit. We still have 
four other aspirants that are waiting, including--we have the 
ambassador from one of those countries with us. We need to make sure 
that that open door stays open. This may take a while. There are 
complications in the case of all four of these aspirants. But we have 
to maintain the principle that the door is open.
    We also have to work with partners as part of this broader focus on 
not only new membership but enhancing partnerships. Key here is the 
NATO-EU relationship, and I see growing opportunity for this in the 
maritime area--we've seen this already--and in the area of resilience. 
So those are two examples of where NATO and the EU can work much more 
closely together.
    We have to figure out how to bring Sweden and Finland even more 
closely into the alliance. How do we do that? At the last summit they 
were named as equal opportunity partners. Well, that's good, but it 
hasn't meant much. We have to make that mean something. They should be 
invited, frankly, into all of NATO's meetings and exercises, as far as 
I'm concerned. There are moves in both countries to think about 
membership, but it's not going to happen for a while, so we have to 
make them virtual members.
    And then a final point about partnerships: I think we have to think 
strategically here. Japan and South Korea have really no ties with the 
alliance. We ought to make them equal opportunity partners. We need to 
start thinking about bringing our Asian security structure and the 
European structure a bit closer together. This is something we can do 
very easily at Warsaw.
    And then finally, we need to increase European defense spending. 
This is a long discussion about burden sharing. It has clearly emerged 
from a backwater issue to a front-burner issue in the presidential 
campaign. It's a serious issue. It is not an issue that should result 
in the demise of the alliance.
    Some positive steps have taken place, including the 2 percent 
pledge at Wales. For 2016, 20 of the 28 members of the alliance will be 
increasing their defense budgets. It doesn't sound like much, but given 
where we were and the slide that we were in, it's a good thing. We need 
to figure out how to maintain that, and we need to do some things at 
Warsaw to continue that positive trend.
    And we need to encourage more efficient use of the capabilities 
that we have. The framework nation approach, which I can talk about if 
you'd like in detail later, is a very useful way--sort of smart defense 
on steroids. And we need to think about how you can use that to make 
European defenses much more coherent and efficient.
    Then finally, I would say this is not the time to think--as I said 
in my opening comments--to think about the alliance as being obsolete. 
It will continue to adapt. It's slow. It is the perennial battleship or 
aircraft carrier that turns slowly. But it's turning. And we need to 
double down on NATO now. Hopefully, that's what we'll do in the summer.
    Thank you.
    Mr. Tiersky. Dr. Binnendijk, thank you very much. I couldn't 
presume to summarize your extraordinarily rich remarks, but I certainly 
take from them the multiplicity of challenges and opportunities on 
NATO's plate. And I also heard loud and clear your call that United 
States leadership is absolutely crucial in meeting any of those 
challenges and taking advantage of the opportunities before us.
    Admiral, please.
    Adm. Gumataotao. Thank you, Alex. And also, once again, thank you 
on behalf of General Mercier, the Supreme Allied Commander 
Transformation. Thank you for inviting us up here to have this 
dialogue.
    And it should be a dialogue, so I'm really anxious to get to the 
Q&A, so I will try to keep my remarks short.
    But before I do, let me just say what Hans has laid out is really 
remarkable in terms of the value of the perspective we get from this 
end of the Atlantic. And I say that because this Alliance Revitalized 
study--they folded Allied Command Transformation into the discussion. 
So none of these things came out of a vacuum. There was really robust 
discussion.
    And to Mr. Pisarski, I would like to commend Poland for their 
commitment to the defense investment pledge because you are one of the 
countries--Secretary-General Stoltenberg did highlight that in his last 
visit to Poland, as you know, sir--in terms of the 2 percent of your 
GDP for spending on defense as well as the 20 percent for R&D.
    Well, let me make it real quick for you all. If I asked for all of 
you to raise your hands if you know where Supreme Allied Command 
Transformation is at. All right. It's in Norfolk, Virginia. And my aide 
and I drove up here, three-and-a-half hours or so. It is in the good 
U.S. of A. And it is one of NATO Strategic Allied Command headquarters. 
And as I mentioned, General Mercier is our commander. That is not a 
subtle point. It's a huge point.
    And so I wanted to take maybe a minute or so to talk about the role 
of Allied Command Transformation because to be honest, all of these 
four-stars do provide military advice to NATO leadership, and you need 
to know where ACT is coming from.
    There is another strategic allied command headquarters, and that's 
in Mons. It's Allied Command Operations. And they really work on the 
current issues, the contingencies and things that make our head hurt 
today. And that's run by General Scaparrotti, a U.S. flag officer, four 
star.
    If you think about ACT, think about transformation. If you think 
about relevance and adaptation, I have this quote that I talk to my 
folks about the future belongs to the one who prepares today. If you 
think about it, if you just worry about today and you don't think and 
talk about these many issues, we will not be ready, and we will be 
continuously seeing this thing called strategic shock and surprise.
    So ACT tries to bridge the gap always between what we're currently 
doing in our ongoing initiatives, being very cognizant of the security 
environment that you've heard articulated this afternoon, with future 
thinking and investments--investments, I underline that for you. And 
our core missions of NATO strategic anticipation, training and 
exercises and capability development try to drive towards those 
investments.
    And finally, before I actually talk about the context of why we're 
here, this trans-Atlantic bond is not just symbolic. And it has been 
there since 1949. And I ask you, why is it so real? It's real because 
the common bond between Europe and the United States and Canada are 
these values. It's been talked about: the values of democracy, the 
values of human rights, individual liberties, the rule of law and the 
respect for international order. Bottom line. And it has persisted, and 
it will endure.
    And I'm very, very excited at the fact that ACT is here in Norfolk 
because we do these kind of exchanges and dialogues--minus a six-hour 
time difference if you had to have somebody up on VTC--but it's just 
very difficult. So this is extremely important that we're here.
    In the context of the Warsaw Summit, we brought some documents up, 
and I think they are available outside. Those two documents that were 
produced by ACT is the Strategic Foresight Analysis--SFA we refer to--
and the Framework for Future Alliance Operations. The second document 
is a Bi-SC document.
    The first one you will read talks about trends. Secretary-General 
Stoltenberg said, and everybody can agree, you cannot predict the 
future, but you better pay attention to trends. You better pay 
attention to where the population boom's coming from. So in about 30 
years, where is the next 2 billion going to come from? It's not going 
to come from the United States. It's going to come from areas like 
North Africa or in places where the countries are not as developed. 
It's population booms coupled with megacities, et cetera. That's all 
talked about in the SFA.
    The FFAO ties more to the military capacity of NATO and what we 
talk about in collective defense. And it talks about potential 
instability scenarios, and it talks about military implications. And I 
say that because you have to understand that that drives us to think to 
the future.
    But what we do know is that it is very ambiguous. It's very 
volatile. It's very dynamic, this future security environment. And if 
you don't believe me, just look at where we were as an alliance 10 
years ago. The people that say, hey, is NATO relevant today? And Hans, 
you came right in and said, you know, the alliance is value. And this 
thinking about being obsolete, people do not understand that in the 
journey that we've had for over six decades, the alliance has adapted.
    And if you think about when there was no perceived threat, the 
alliance persisted and assisted abroad. And that's why they had that 
shift, and some people describe it as a phase, in NATO where they 
became expeditionary. Well, the alliance is adapting. The alliance 
understands the threat today, but the alliance wants to ensure that we 
boldly step forward as a group that is committed to the defense of all 
these people. And that's what you're going to hear, I believe, at the 
Warsaw Summit.
    The three core tasks of NATO are very valid today: collective 
defense, crisis management and cooperative security. Those are so real 
today.
    The difference is that today, with the dynamic and ambiguous 
environment, it is causing us to look at how do we have intertwining 
and/or interlapping lines with all three missions before one dominates 
the others. In fact, cooperative security did not come into core tasks 
until recently. The core has always been collective defense. But in 
this ambiguous environment that we have, where military is not 
necessarily going to be the first thing you're going to see, you have 
to have a very comprehensive approach.
    And so to the Warsaw Summit, I would say that given these security 
changes, consider the Warsaw Summit as the next phase of the alliance's 
adaptation. This is not just we all woke up and said we've got to do 
all these things.
    You know, Mr. Pisarski started to line out all the things that 
we've done in the RAP, and you took my thunder away from that. And then 
I don't know if Hans was listening to his own notes. He says, we need 
to hear more about projecting stability, where you started the list the 
things that we need to start to do and are already being talked about. 
It was interesting. If you really want to answer your question, you 
listen to your own answer. He came out with the answer.
    But I think, as you look at the summit, there are going to be two 
key pillars that we're going to be looking at in the summit. And one is 
protecting our citizens, the 1 billion citizens under this alliance, 
protecting by looking at how to modernize. And it goes down to 
deterrence and defense. And then the other one is about projecting 
stability. Those are going to be the two pillars that we're going to 
work on.
    And the final thing I'll say before we open it up for questions, 
Alex, is that we can easily talk about where the threat angle is coming 
from. The threat axis right now--if I can ask any of you, you guys 
would get a hundred percent--the threat axis right now in Europe is 
coming from the east, and it's coming from the south, right? Somebody 
think it's the Arctic, maybe? No, it's not a threat. Not, it's the east 
and the south.
    But I offer you this. That's thinking today. Where is the threat 
going to be at 10, 15 years from now, 20 years from now?
    And so I think NATO Warsaw Summit is going to look at how do we 
prepare the alliance for collective defense from a 360-degree 
perspective. In fact, the fact that cyber domain is about to be 
declared in the summit--cyber has no axis from the south, west, north, 
east; it's everywhere, right? And so that's what I would leave with 
you: protecting our citizens, projecting stability and looking at the 
threat and adapting to it from a 360 perspective.
    Thank you very much. I look forward to your questions.
    Mr. Tiersky. Thank you, Admiral. An excellent presentation. You 
summed it up yourself with your closing points, but the key phrases I 
heard were to think to the future, facing a volatile and dynamic 
environment, and what we need from the summit are both deterrence and 
defense and projection of stability. Thank you very much for that 
message.
    Before we get to audience question and answers, which we'll do in 
just a couple of minutes, we're going to take the prerogative of being 
Helsinki Commission staffers and grill you ourselves a little bit. 
[Laughter.] And I'll just give one round myself and then turn the floor 
over to my colleague, Jonas Wechsler.
    I want to ask two questions to start with. Enlargement, first of 
all, is, as I said in my introductory note, it's something that our 
commission leadership has paid close attention to over the years, and I 
don't think--obviously, Montenegro's accession is significant, but of 
course, this isn't known as an enlargement summit. This is no one's 
idea of an enlargement summit.
    Can we talk a little bit more about the consequences of enlargement 
in Montenegro, the messaging that that's sending to various parties? 
And then, of course, we haven't spoken much about Georgia and Ukraine 
in this respect. I'd love your thoughts on that. And perhaps we could 
start with Mr. Pisarski.
    Let me put my second question on the table right away as well. 
Admiral Gumataotao, I think I'm going to put you on the spot on 
something that Dr. Binnendijk raised, which is that we are hearing in 
Washington that it is no longer a kind of a fringe view that the idea 
that NATO allies are quote-unquote not paying their fair share, that 
they're quote-unquote ripping off the United States, and that there may 
be consequences for the alliance as a whole, in Hans' words--or not his 
words, but quoting others--that the alliance may be obsolete as a 
result. I would love your comments.
    I think you all agree that progress is being made. You've both said 
that, and I'd like to hear a little bit more about that. But if 
progress is being made, is that message being sufficiently heard in 
Washington in particular? Is it making a difference in the political 
discourse?
    So two questions to the three panelists. Maybe we'll start with Mr. 
Pisarski on enlargement.
    Mr. Pisarski. Thank you very much.
    Before I tackle this exact question, I'd like to encourage you to 
play a game. Just imagine that the enlargement in 1999 and 2004 had not 
happened, that NATO stayed in its kind of Cold War borders, how the 
situation today would look like. What would be the nature and scope of 
the challenge and threat given Russia's action in the east? How would 
have the countries bordering Russia reacted? What would be the 
political cost and military cost of reassuring those countries that 
major conflict would not have ensued? And if you try to imagine that, 
you would see the validity, the utility of NATO enlargement and why it 
was a good move, why it has been such a successful policy, and why it 
should stay in our cards.
    And then we are very happy to continue this process, and then 
inviting Montenegro to be our next member of the NATO alliance because 
that really means that NATO still possess the transformative power. I 
mean, countries who want to get into NATO need to reform themselves, 
need to reform their military structures, need to think more wisely 
about their security. But also, they need to reform their domestic 
institutions. They need to weed out lots of corruptive processes and 
phenomena and all those things.
    So yes, we understand and we are very happy that this very 
successful NATO policy, as I said, transformative policy will be 
validated. And then we know that there are some--as we will invite a 
new member, it will be also a signal, an encouragement for the other 
prospective aspirants or members. We're talking about Bosnia-
Herzegovina, Georgia, Macedonia----
    Dr. Binnendijk. Ukraine.
    Mr. Pisarski. Ukraine, yes. And then that really will signify that 
NATO is still in the business of not only reacting to emerging threats 
and challenges, but also projecting this stability and basically NATO 
enlargement as an investment in stability and security.
    In addition to welcoming Montenegro, we will have also important 
meetings with Ukraine and Georgia and partners that have been 
mentioned. You know, Georgia has been a fantastic partner of NATO, very 
well advanced, very well prepared to cooperate with NATO.
    Indeed, it was--Georgia was given a privileged status among 
partners, together with such countries like Sweden, Finland, Jordan, 
Australia--I'm talking about Newport. So it's really very good, very 
good company. And, you know, we very much count on making this 
cooperation even more successful, even more practical, even more 
concentrated on interoperability. NATO has been training in Georgia, 
with Georgian troops many times. So I think there should be a strong 
political signal on this.
    Ukraine--we cannot leave Ukraine in such circumstances. I think 
that there should be a strong political signal for support of Ukraine's 
sovereignty on the political level, but on the practical level, to help 
Ukraine to restructure, to really create a modern armed forces.
    And we have been doing this together with our allies from United 
States, U.K., Canada, Lithuania--help to Ukrainian soldiers, providing 
all sorts of support and assistance. And there is a Polish-Lithuanian-
Ukrainian brigade--this is also an important asset for us--to implement 
this practical co-operation with Ukraine.
    Mr. Tiersky. Anyone else on enlargement, or should we go to burden 
sharing?
    Dr. Binnendijk. I can say something--go ahead, and then I'll make a 
comment.
    Mr. Tiersky. Great. Admiral, please.
    Adm. Gumataotao. Before I talk about burden sharing, let me just 
add to Mr. Pisarski's comment on enlargement--when you think of NATO 
enlargement, it should be right in the same phrase as partnership as 
well, because when you think about enlargement--and I want to say 
Montenegro is on track; Montenegro is on track to become the 29th 
member of the alliance, and this process will continue beyond the 
summit.
    But we also know in the alliance that we do not go into places in 
any part of the region--the world is globalized, it's networked. And so 
what happens in the Pacific has domino effects with Europe and with us.
    And so we have learned that partnership is critical. Partnership is 
critical, and we leverage those--we have great partnership with Jordan. 
Sweden, Finland, of course. Georgia, of course--the substantial NATO-
Georgia package.
    What I am saying is just, don't look at it from a sense of 
myopically saying, OK, you have to be a member to be of value. The 
partners, the over 40 partners that we have have been very instrumental 
and valuable--to include, by the way, Australia and Japan, who have 
already started to participate in a lot of our partnership discussions. 
So that's already happened.
    To the issue of burden sharing: Sometimes, when you're asked a 
question, if you stand at a point in your life, then that question is 
only germane to the point in where you're standing. To really 
understand the full context of the response, you need to see the entire 
journey of where we've been.
    And I say that because the Secretary-General himself, in his first 
speeches, has acknowledged the fact that we've had a long period of 
decline in defense spending. But you have to ask the question, why? And 
it was because where was the threat? And so the issue was, we were 
trying to build Europe, and the EU was a very good example of that. 
Peace fosters economic prosperity. And so instead of spending a lot on 
defense, they were spending a lot for economic prosperity. And that 
makes sense with any country.
    But with the global security environment that we have just painted, 
and the changes that have happened over the five years, it's been a 
wake-up call. And so go with what has happened. I like the analogy of a 
battleship and the rudder turning over. If any of you have ever driven 
a hundred-thousand-ton ship, you will know that when you put the rudder 
over, the bow will not come immediately, but the rudder has shifted. It 
has shifted in a positive way starting in 2015, and the trends of 
spending to increase to get to the defense investment pledge of 2 and 
20 is coming around with over 20 countries, and it's going to get 
better. And if you equate the current initial bump of spending, that 
equation is about 1.5 percent increase, that equates to about 3 billion 
[dollars].
    Now, the Secretary-General said this. We are doing a lot. We have 
turned over and we are making improvements. Every country is taking a 
hard look at this. But we have a lot more to do. And I'm pretty 
confident that this is going to be one of the continuing conversations. 
Remember, it's the next phase of adaption. The Secretary-General is 
going to talk to the leadership of the alliance during the Warsaw 
Summit to recommit again, to reaffirm their commitment to this defense 
investment pledge.
    Mr. Tiersky. If I could--Dr. Binnendijk, I hesitate--I'm very loath 
to ask our experts to be brief because every word that has come from 
them has been absolute gold. But I would like to get to audience Q&A, 
so if we could shorten up our responses a little bit so I can get to 
Jonas and then our audience. Thank you.
    Dr. Binnendijk. Sure. Just on enlargement: I think I wrote the 
first article supporting enlargement back in 1991, before it was 
popular, and then I worked on it at the State Department when I was 
policy planning staff. So I'm a strong believer in the whole 
enlargement process. I think the answer to your hypothetical question 
is--I think if the Baltic states were not in NATO now, they would 
probably have Russian troops on their soil. I think they would 
probably--at least Estonia probably would have--they would be in a 
frozen conflict.
    The last four aspirants that we have--you mentioned their names--
for different reasons, it's going to be hard. It's going to be hard. 
Georgia has Russian troops on their soil. Ukraine has Russian troops on 
their soil. That makes it hard. We probably have to change the criteria 
to bring them in eventually. And Bosnia has internal problems relating 
to ownership of military installations. And the Macedonia name issue 
hasn't been settled. So this is going to take a while. But we need to 
maintain the process.
    On burden sharing, we just need to keep the pressure on without 
doing damage to the alliance. As you know, when you turn that rudder, 
you also have to keep the steam--you have to keep moving forward in the 
ship to have the thing turn. So that's what we've got to do.
    And I would suggest one way to do that is what I would call a 
stairstep approach. We need to lay out a plan for--I mean, we're 
talking here primarily about Germany, Italy, the Netherlands and a few 
others. Germany is 1.3 percent, the Netherlands, 1.1 percent; Italy is 
just under 1.1 percent of GDP spent on defense. Especially Germany and 
Italy make a difference. We have to work out a plan for how they're 
going to get to the 2 percent figure in the decade or so that they've 
been given and try to accelerate it if we can. We've got to keep 
steaming forward to make that ship turn.
    Mr. Tiersky. Jonas Wechsler from the Helsinki Commission.
    Mr. Weschler. Thank you.
    Alex requested that I ask only one question, one little question. 
And my topic is Russia. So I'm going to take a page out of our 
chairman's book, which is to ask a compound question. And it'll have a 
few parts, and it's not directed towards any of our speakers. Please 
cut off whichever chunk you think most appropriate and have at it.
    So the topic, Russia. Other experts, many experts have suggested 
that with regard to Russia, the summit leaders are going to have to 
seek a dual approach, demonstrating real strength intended to reassure 
our NATO allies, to deter further aggression; at the same time 
remaining open to political dialogue with Russia, which many of our 
European allies think is extremely important.
    So first part of the question would be, how do we balance these two 
objectives, especially given Russia's worldview; isn't demonstrating 
strength really one of the prerequisites to get Russia to the 
negotiating table?
    Second part of the question comes out of the flip side of the 
rubric of knowing your adversary: Does NATO appreciate or understand 
Russia's own perspective and set of grievances towards NATO--whether or 
not they're legitimate? And what I'm speaking to, then, are issues such 
as missile defense, ongoing exercises, and, of course, the whole 
expansion issue.
    As a matter of fact, Putin, back in January, said several times 
since then--it's become Russian argument--that one of the reasons, for 
instance, that it inserted itself into Ukraine is its fear of NATO 
troops next to Sevastopol.
    Did we, for that matter, ever promise Russia--this is another thing 
we've heard Putin saying--that there would be no NATO expansion way 
back in 1991? It's raised many times with Russians. So I realize that's 
a large package, but look forward to your answers.
    Adm. Gumataotao. So Jonas, I'll try to keep it quick. This piece 
about this dual approach that we're talking about, I think there is no 
contradiction between a strong defense and a political dialogue. And in 
fact, I believe both those efforts complement each other.
    But what is important to say is that actually, you must have a 
strong defense first to leverage that as a foundation before you can 
have this dialogue. I think it needs to be very visible to Russia that 
we are committed and resolved in a collective defense way, not in an 
antagonistic way, which goes to your second question.
    I think Russia has done some interesting work in strategic 
communications--in fact, you can get a doctorate in that via Russia--
because they're very good in shaping the message, and then how they say 
where that it is Europe, it is NATO that's a threat, is that this--you 
just talked about it. And how they control that message versus one of 
our values of democracy and free speech. They can singularize that 
message where people all of a sudden, because you suddenly express it 
continuously, people say, oh, maybe they're right.
    And as you would know, Jonas, they are very good in shaping the 
truth so we look back at certain incidents that have occurred. It 
causes ambiguity and doubt whether or not the facts are the facts. So 
in the 21st century, it's real. And I think Russia has done a very good 
job in saying that NATO is a threat.
    What I say to you is that through the 60-plus years that we have as 
an alliance, our resolve with the common values that I talk about, 
which is extremely important, we are there and committed to protect 
each other and our values that we hold. And that's where we come in, 
strong defense and then political dialogue so that we don't have any 
surprises or miscalculations.
    Dr. Binnendijk. As you all know, there is a long history to this 
dual-track approach. You can take it back to the mid-1960s, when the 
alliance was divided. There was a report called the Harmel Report, 
trying to pull together various strands of alliance unity. And they 
came up with this dual-track approach, deterrence and defense on the 
one hand, detente on the other. It actually worked.
    You had a second opportunity, when we were trying to deploy 
missiles in Europe, the dual-track approach. One track was deployment. 
The other track was arms control. The INF treaty was the result. So 
here are two historic cases where this has worked.
    I'm not a great fan of Putin at all, but I worry that he will 
miscalculate. And the way to deal with that is to keep a dialogue going 
with him on critical issues. This is not business as usual, which I 
don't favor, but I think it's business as necessary. And there are 
several areas where I think we need to engage.
    One of them has to do with military transparency and incidents. Not 
a day goes by where we don't have a close call somewhere in Europe with 
Russian aircraft that doesn't have its transponders turned on. So we 
need to have a discussion about incident avoidance and incident 
management should there be a problem.
    We need to have a discussion with Russia about nuclear doctrine. 
They're on the edge of a very dangerous nuclear doctrine, which is 
basically escalate to de-escalate, first use of nuclear weapons. It's a 
very dangerous doctrine in today's world, much more so than in the Cold 
war, incidentally. So we have to have a discussion on nuclear doctrine 
with Russia.
    And I think we might have a productive discussion with Russia on 
the question of involvement in the internal affairs of other countries.
    So these are three areas right there where I think we could have a 
discussion with the Russians, primarily to avoid miscalculation on 
Putin's part. I finished a book for the RAND Corporation last year 
called ``Blinders, Blunders, and Wars.'' And we looked at eight 
historic cases of massive strategic blunder. Like, why did Napoleon 
march to Moscow? Why did the Japanese decide to attack Pearl Harbor? 
These were blunders, but they did it. One of the things that came out--
one of the lessons that I learned from doing that book was that Putin 
has many of the characteristics of a blunderer, and we have to avoid 
that.
    Mr. Pisarski. Very, very quickly: I agree with what my colleagues 
have said, and definitely in keeping the channels of communication with 
Russia open in terms of the immediate security issues.
    Now, a little bit to this perception and whether Russia was 
promised NATO would not have been expanded, things like that. I think 
it's easy to say, oh, NATO has promised Russia not to expand, and then 
count on that nobody will actually go back to those issues and not 
study them and accept it. Well, I'm not aware about such promises.
    And then if you think about Russia's complaint about exercises and 
how destabilizing they have been, I would just encourage to employ a 
very simple method of chronology and see what happens first. First was 
Crimea, then was Donbass, then came exercises. So I think it's not by 
accident that this sequence has been like that. There is, I think, a 
causal chain of events underlined by some sort of causality. And if 
Russia wants to--I understand Russia doesn't like NATO exercises. But 
those exercises have been as a response to Russia's actions. So it 
seems that the keys are to unlock those doors, the solutions to those 
issues are really in Moscow.
    Mr. Tiersky. Thank you very much. As our audience members gather 
their thoughts for their questions, I want to just pull two strands 
together that I just heard: The keys are kind of in--or the reasons are 
more in Moscow than on our side; and then what Dr. Binnendijk said 
about military transparency and incident prevention.
    Those discussions, our discussions with the Russians, are actually 
happening continuously in the OSCE context on transparency, on Vienna 
Document inspections, all of these things. And my sense is the problem 
there, really, is we just don't have a willing partner on the other 
side at this point. But it's--not to disagree.
    Do we have audience members who would like to ask a question? Maybe 
what we'll do is we'll take a couple at once. And I saw these two. 
There's a microphone, I believe. Why don't you start by standing up and 
introducing yourself? And speak loudly, please.
    Questioner: Hi. Matthew Glowiak [ph] from the University of Dayton.
     I just wanted to ask a question based off of something that Dr. 
Binnendijk and Admiral Gumataotao said. In regards to possibly bringing 
in Finland and Sweden and the concerns with that, what are your 
recommendations, or what is your take, on the things that are happening 
in the Arctic right now?
    Most recently, within the last few years, Russia has been 
redeveloping their Cold War bases in the Arctic, namely Alakurtti, 
which is pretty much right on the Finnish border. I just wanted to know 
how that plays into your decision to possibly try to incorporate 
Finland and Sweden, who have seen increased militaristic activity from 
the Russians in the Arctic. Thank you.
    Mr. Tiersky. Thank you. And a second question right behind you.
    Questioner: Hi. I'm Harrison Grad [ph].
    This could really be for anybody, but I'm curious, from your 
impressions, what are some NATO--European NATO members' reactions to 
what some have described as the failure of the United States to uphold 
its end of the Budapest Memorandum, which essentially, from my 
understanding, was that United States would uphold Ukraine's 
sovereignty in exchange for giving up its nuclear weapons?
    And if there are some hesitations about United States' commitment 
to collective defense, what are some ways that we could help reassume 
them in the future?
    Mr. Tiersky. Great. Thank you very much.
    Would anyone like to start with the Arctic?
    Dr. Binnendijk. Yes.
    Mr. Tiersky. Sure. Thank you.
    Dr. Binnendijk. NATO--we're talking about NATO here--NATO does not 
pay an awful lot of attention to the Arctic. There's the Arctic 
Council. Actually, Russia sort of behaves in the Arctic Council in 
terms of what they do in that council. But you're also right--I think I 
counted at one point some 20 bases up on their northern coast that they 
are either building anew or refurbishing from the old Soviet days. So 
they very clearly have a strategic plan that they're carrying out 
having a lot to do with opening of the ice flows and that transit.
     I think there have been a few key nations who are part of the 
Arctic Council--Canada is one of them--really have been reluctant to 
having NATO engaged in the Arctic. That's changing, I think, because of 
what they're seeing now with Russia. So my guess is that increasingly 
over the next four, five years, we're going to see the Arctic as a 
point of interest within the alliance.
    I think with regard to Finland and Sweden, they could be in the 
alliance tomorrow morning in terms of consensus within the alliance if 
they so chose themselves. They both have long histories of neutrality--
for different reasons, but they're there. And I don't see a move in the 
next year or so in either country towards membership. The idea now, I 
think, is to bring them as close to membership as we can. It may well 
be that if we push too hard, it would be counterproductive politically 
within those two countries.
    The Budapest Memorandum--you know, I personally believe we ought to 
be providing more weapons to Ukraine to provide for their own defense. 
They actually are pretty--they produce a lot of their own weapons, too.
    What I think we're going to see at the Warsaw Summit--that's what 
we're talking about--with regard to Ukraine is a real push to support 
defense reform in Ukraine. I was in Kiev late last year, and the 
keyword in Kiev is reform--government reform, reform in defense. And 
that's now what I think the alliance is going to be focusing on at 
Warsaw.
    Adm. Gumataotao. And if I can talk about Sweden and Finland because 
it's very important to understand that--very capable countries, as you 
know, lots of interest up there in the north. And I would say, when you 
think about relationships, think of the world--it's globalized. It's no 
longer, I mean, what happens is just from our boundaries and our 
geographic boundaries. And so Sweden and Finland have relationships, 
and it should not surprise you at all that there's a lot of 
interconnectedness with European countries to many other countries 
outside of Europe and the EU--to include Russia. And so as Hans said, 
it is their choice on whether or not they want to apply for membership.
    But please do not leave here thinking that there is no robust 
relationship between Sweden and Finland with NATO, the alliance. 
Tremendous amount of partnership initiatives. And if you think about 
the Baltic, if you look even in the maritime perspective, the BALTOPS, 
how integrated and how complicated a lot of those exercises are up 
there in the Baltic, that it is very robust in our communication, in 
our dialogue, in our cooperation because NATO knows that in--what we 
do, especially up to the north, we do need Sweden and Finland.
    And to the point about Ukraine--and that's an interesting point 
that you mention because you have to look at what's happening today--I 
don't know if you know this, but our focus with NATO is to support 
Ukraine in its territorial and sovereign integrity. That I think is 
extremely important in what we do as a collective defense as well 
within our own members--for us to reach out and say our commitment to 
Ukraine is in that order. NATO has opened the summit to have the 
president of Ukraine come and sit in on the summit.
    And then there is also a follow-on commission that they're going to 
be having with the leadership for further discussions on how we can 
partner with them down the future. And that's not even in the context 
of whether Ukraine should be a member. We are already actively involved 
in Ukraine for their sovereignty and their territory integrity.
    Mr. Pisarski. To the Budapest Memorandum, I would like not to talk 
directly to this, but I would like to make a little bit broader 
statement of a more universal nature. The story of Budapest Memorandum 
and many, many others, declarations that sounded very credible, is a 
tale of what makes the guarantees credible and what makes the 
guarantees, especially the security guarantees, a very significant 
factor in crafting the decisions regarding the security issues.
    You know, I come from the country--and there are many countries in 
our region that had been given in the past all sorts of guarantees and 
assurances. Poland went to war in 1939 having the guarantees of Western 
countries which were not kept. But it's not only Poland. 
Czechoslovakia--this is the story throughout whole region. Indeed, it 
explains a lot about our attitudes and behaviors. And some people 
think, oh, maybe we overreact, maybe we are oversensitive. Yes, maybe 
we overreact, maybe we are oversensitive, but this all has some reason.
    I would like to juxtapose those guarantees that have not been kept 
with the Article 5 guarantees. And this is how we make a difference. 
This is how we understand what the credible guarantees should look 
like. And I think that not only do we know that the Article 5 is 
credible, is working, is solid, but I think also that our opponents 
know that.
    Mr. Tiersky. Thank you very much.
    We are nearing the end of our time. I will reserve, again, the 
right of the Commission to ask one last lightning round of questions to 
our panelists. But before I do that, I'd like to offer the floor to 
Ambassador Gegeshidze of Georgia. If you'd like to make a comment, sir, 
you'd be welcome to. Thank you.
    Amb. Gegeshidze. Thank you.
    First of all, I would like to thank the panel and the organizers of 
this very interesting discussion. It's very timely and very much 
needed, especially as we're getting closer to the Warsaw NATO Summit. I 
would like to comment and with this being a little bit of Georgian 
perspective in some of the points which were discussed by the 
distinguished panelists.
    Transformative power of NATO integration was mentioned. In 
Georgia's case, transformative power of getting closer to NATO has 
really brought tangible results, together with the transformative power 
of EU integration, which Georgia is also part of, while being part of 
the Eastern Partnership program and being with the EU in association 
agreement.
    This transformative power has really changed my country in terms of 
improving its institutions and all sorts of standards, which as a 
requirement are set for the potential members of the alliances, both 
NATO and European Union. And on all accounts, Georgia has--is already 
meeting technically the requirements for the NATO membership. And this 
has been already testified by all sorts of inspection teams and 
validation processes which Georgia has gone through. So what remains is 
a political decision on the part of all allied members, which due to 
understandable reasons, it's difficult to achieve in Georgia's case.
    But the time may not be on the side of sustaining this 
transformative power in the case of Georgia, because if one assumes--
and we all agree that Georgia has graduated from the stage when it has 
already transformed to a degree when it can be invited to the alliance. 
But this is not happening.
    Then this may discredit the very notion of the NATO integration 
process having transformative power, because there have been some polls 
in Georgia lately which would show that disillusionment in the 
population with the lack of the reciprocity on the part of NATO, and 
sometimes EU is leading to some sort of hesitation to support in those 
big numbers the NATO integration process. Because in Georgia, since the 
1990s, getting closer to NATO has always enjoyed very high popular 
support. This time too; but as we are nearing our own elections this 
October, then the preliminary polls show that, well, in case of the 
lack of the reciprocity on the part of NATO or the EU--because on the 
EU part we are also waiting for the visa liberalization, which is, 
again, in the pipeline but maybe lagging behind the pre-agreed 
timetable--so this might be reflected in the outcomes of the elections.
    My personal opinion would be that there will not be, really, some 
really very serious setback in Georgia's population support of the pro-
Western policies. But again, everything has limits. And also in 
Georgia's case, transformative power may also have its limits if, in 
due course, the real progress or the next step towards membership will 
not be offered to Georgia.
    And the second point is the very interesting point which Dr. 
Binnendijk mentioned regarding the changing of the criteria of inviting 
some of the countries where Russia was able and successful in putting 
its very heavy hand by means of deploying military troops there. So the 
NATO study of 1995, which says that any aspirant country first has to 
settle the territorial dispute with the neighboring countries in order 
to be eligible for the membership, this was put to good use by Russia. 
And by wounding Georgia by means of occupying its territories, and now 
Ukraine, then according to this very principle of NATO study, these 
countries are forever ineligible for the membership. And if one really 
does not change this criterion, then it means that we are giving Russia 
a veto power on NATO enlargement towards our part of the world.
    I think that the overall security environment has greatly changed 
since all those well-known treaties--CFE or Vienna Document or INF was 
mentioned and others, who are mostly defunct these days--and this NATO 
study is also almost obsolete in many, many senses. This keeps Georgia 
hostage. This keeps Georgia hostage and not eligible for making the 
step forward.
    So I think the discussions on changing this criteria would be 
really timely, to begin and to get to the point when not only NATO 
institutionally but also academically, the policy community has to 
adapt to the new security environment, which we see to be really 
lagging behind.
    Thank you.
    Mr. Tiersky. Ambassador, thank you very much for your very 
important comments. I can assure you that the members of the Helsinki 
Commission will remain seized of the need to support Georgia in its 
aspirations.
    Ladies and gentlemen, the meeting is about to end, but I do want to 
give our panelists one chance to answer a lightning round of questions, 
really lightning round.
    Help me do my job. The members of the Commission will come to me 
surely and say, Tiersky, what NATO decided in Warsaw, is any of that 
working? They're going to come to me in six months, I guarantee it, 
maybe sooner than that. Can anyone think of any good metrics, maybe two 
metrics each, that I can say, yes, this shows that the decisions made 
in Warsaw at the summit really have made a difference in this 
particular instance? What should I look for? Thanks.
    Dr. Binnendijk. I'll give you two: defense spending--I think we'll 
want to be able to demonstrate that the decline in European defense 
spending has turned around and that indeed, the plans that are 
currently in place for 20-some nations to increase defense spending, 
that that's going forward--that's one; and two, that we have forward-
deployed some multinational forces in the Baltic states and in Poland 
to help enhance deterrence.
    Mr. Tiersky. Thank you. Anyone else?
    Adm. Gumataotao. Yes. Two things: See how much has changed beyond 
rhetoric between this NATO-EU cooperation--you know, hold us 
accountable to that because both have excellent tools, but they're 
complementary.
    And then number two, we've talked a lot about the four rotational 
multinational battalions. We talk about looking at a strategy and how 
we can tailor presence down to the southeast flank. And we talked about 
increasing our understanding of resilience. Those things, I think, may 
be discussed and probably will be discussed--and the protection and 
improving deterrence and defense. So you should look six months down to 
how much more details are involved in that.
    Thank you.
    Mr. Pisarski. These are all very excellent. I could only accord 
them. If we are able to make this visible significant shift from, as we 
said, reassurance towards deterrence in the form of the tangible 
forward-deployed troops and also tackle--and we have some meaningful, 
effective discussion about how to engage in the south, yes.
    Mr. Tiersky. Ladies and gentlemen, please join me in thanking our 
excellent panelists for what has been a tremendously interesting 
discussion. [Applause.]
    A transcript of this discussion should be available on the Helsinki 
website, perhaps as early as Monday, perhaps as early as sometime late 
tomorrow. We'll see how other responsibilities get in the way.
    Thank you all for being here, and we look forward to seeing you at 
the next Helsinki Commission briefing. Visit our new website; it's very 
nice.
    [Whereupon, at 4:31 p.m., the briefing was adjourned.]







                            A P P E N D I X

    =======================================================================

                 Prepared Statement of Maciej Pisarski


    Thank you very much for the opportunity to participate in this 
timely briefing on the upcoming North Atlantic Alliance Summit in 
Warsaw. It is my great pleasure to share with you Poland's priorities 
in its double role both as a host nation and as one of the 28 allies.
    This year's NATO Summit will constitute a key event for the 
transatlantic alliance, serving as an occasion to take decisions 
important for the security of alliance members and their partners. 
Today we face a number of parallel, negative challenges for Euro-
Atlantic security, that shape our threat perception and overall 
evaluation of the security environment. It's difficult not to admit 
that the security environment has undergone dynamic changes. Extremism 
and instability in the Middle East and North Africa have led to the 
worst the humanitarian crisis in years, notably in Syria and Iraq. 
Terrorists attack homelands of NATO allies. Russia maintains an 
aggressive attitude, continuing to occupy the territories of Ukraine 
and Georgia. It is still actively involved in fighting in Ukraine and 
supports separatists. Russia's actions in Syria support the Assad 
regime, in harsh contradiction to the objectives of the global 
coalition against Daesh. Hybrid and cyber challenges have also become 
an constitutive element of the security picture.
    The threats that we face differ in scope and nature. Yet, despite 
these differences, allies should be ready to assist each other. The 
strength of the Alliance lies in unity, solidarity, values and freedoms 
we are determined to defend. NATO security is indivisible. The NATO 
Summit in Warsaw will be held in the spirit of allied solidarity. In 
addition to the key decisions on strengthening deterrence and defense 
policy of NATO in the context of the Eastern flank of the Alliance, it 
will also bring a comprehensive response of NATO to the challenges from 
the South.
    Let me remind you that the previous Newport Summit prepared the 
first response to new developments in the security: an increase of the 
NATO Response Force and the creation of a brigade-sized high-readiness 
Spearhead Force at its core; setting up additional small headquarters 
in the eastern part of our Alliance, including in Poland, enhancing 
Multinational Corps North-East in Szczecin, Poland, and boosting 
exercises. Everything that was assumed in Newport as part of the 
Readiness Action Plan is gradually achieved. The RAP and the VJTF (Very 
High Readiness Joint Task Force) are valuable instruments for the East 
and South. Yet, the so called ``Newport package'' is just a first step 
in the right direction. The number and strategic complexity of threats 
demand from the North Atlantic Alliance a long-term military adaptation 
to the deteriorating security environment of today and tomorrow based 
upon enhanced defense and deterrence of the Alliance. A ``Warsaw 
package'' should go further, taking into account, among others, a 
persistent forward presence of NATO in our region, including Poland. 
The enhanced forward presence shall be meaningful in a military sense 
(not only for exercises), broadly multinational, meet directly the 
challenges in the region, reinforced of course by appropriate logistic 
capacity and infrastructure. The idea is that there are always rotating 
units on Polish and Baltic States' territories, creating the effect of 
a continuous presence and enhanced deterrence.
    Defense ministers of NATO countries agreed in principle to the 
strengthening of forward military presence on the Eastern flank at the 
February meeting and further decided in June that four multinational 
battalions will be deployed in the Baltic states and in Poland. Now the 
details, including framework nations and their particular locations, 
are being determined on the eve of the Summit. The forces exercising or 
stationing on the eastern flank should bring new military quality and 
be the initial answer to new challenges and threats in the region. NATO 
presence in the Eastern flank should be capable of deterring a 
potential threat and defending us at the early stage of a crisis. We 
hope that the head of states and governments in Warsaw will confirm 
this approach, send a strong political signal of commitment towards its 
implementation in the months and years to come and ensure that adequate 
resources and capabilities will be delivered for that purpose.
    In this context it is important to underline the US leadership in 
the efforts to enhance the security of the Eastern and Central Europe. 
Quadrupled European Reassurance Initiative will allow to increase 
American military presence in our region, which is indeed an important 
contribution to NATO efforts related to defense and deterrence package. 
Poland is ready to host the Army Brigade Combat Team and its HQ as well 
as advanced combat equipment that is supposed to be deployed in Europe 
in the framework of the Army Prepositioned Stocks. We are ready and 
able to provide critical Host Nation Support.
    During the summit we should also announce a progress in building 
NATO Ballistic Missile Defense system in Europe by declaration of the 
achievement of an Initial NATO BMD Operational Capability. Missile 
defense is an integral part of the Alliance's overall defense posture 
and contributes to the indivisible security of the Alliance. The aim of 
this capability is to provide full coverage and protection for all NATO 
European populations, territory, and forces against the increasing 
threats posed by the proliferation of ballistic missiles.
    The NATO Summit in Warsaw must also bring a comprehensive response 
of NATO to the challenges and threats from the South. The support for 
Turkey is a very good example of the principle of allied solidarity. 
NATO is involved in international efforts related to the migration 
crisis aimed at combating people smuggling. At the Defense Ministers 
meeting in February 2016, it was agreed that NATO would send a maritime 
force to monitor the Aegean Sea, gather information on illegal 
migration and cooperate with the EU Frontex Agency. Yet, this is not 
enough. We need to look for more synergies in co-operation with 
different partners. The European Union is a unique and essential 
partner for NATO. The two organizations share a majority of members, 
and all members of both organizations share common values. At the NATO 
Summit we should try to strengthen this cooperation. A Joined 
declaration on cooperation to be signed by the Presidents of the 
European Council and Commission as well as the Secretary General of 
NATO confirms the strategic nature of NATO-EU relations and aims at 
more relevant, daily, joint-up work on countering hybrid threats, 
increasing maritime situational awareness, synchronized crisis response 
backed by exercises and mutually supportive development of capabilities 
in the spirit of a more balanced burden sharing across the Atlantic.
    Discussion about the Warsaw Summit is not possible without debating 
NATO-Russia relations. We hope our Heads of States and Governments will 
be able to set a clear political vision of such relations. Partnership 
we used to have is not possible unless Russia returns to full 
compliance with international law.
    Dialogue with Moscow is inevitable, but the dialogue is not a 
policy, it is a tool for our policy. Therefore it should:

    <bullet>  be well prepared as to its goals, the level of ambition 
and messages we want to send,

    <bullet>  reflect our strong and united position on fundamental 
values and principles,

    <bullet>  not substitute (or impinge on) enhancement of our defense 
and deterrence

    In our opinion in the current and foreseeable future the main goal 
of such a dialogue should be defined as lowering military tension and 
increasing military predictability. It is also crucial to ensure 
reciprocity in this endeavors. It cannot be only the West willing to 
engage on these issues in Brussels or in Vienna under the OSCE 
umbrella.
    We hope that as a result of the Warsaw Summit all partners will be 
able to take advantage of enhanced forms of cooperation with NATO. The 
aim is to provide our partners with more effective capabilities when 
facing security challenges. We are sincerely willing to develop 
enhanced cooperation and infrastructure with eastern and northern 
partners as well as in the Middle East and North Africa, Central Asia, 
Caucasus and Asia-Pacific Region. We continue to engage in political-
military dialogue to promote situational awareness and regional 
understanding as well as practical cooperation with partners in all 
existing frameworks. The most important is the practical dimension of 
the partnership policy. Interoperability and defense capacity building 
should be at the heart of our efforts to assist in building our 
partners' resilience and reduce vulnerability to crises. Both 
initiatives have proven to be useful tools aimed at projecting 
stability in our close neighborhood and beyond, when potential 
instability directly threatens our Alliance. We also devote special 
attention to cooperation with highly advanced partners: Australia, 
Finland, Sweden, Georgia, Jordan, based on their unique merits and 
ambitions. We should also pay more attention to our neighbors who are 
directly exposed to various threats. A more resilient neighborhood 
should be our priority.
    Poland looks forward to Montenegro's membership in NATO. Podgorica 
has been a valuable partner and has made exemplary progress on its way 
to NATO accession. It now serves as a positive example to the rest of 
the region. The Warsaw Summit should stress the importance and validity 
of the open door policy and its contribution to the stability in the 
Euro-Atlantic region. In Warsaw we will reaffirm full and continuous 
support for NATO enlargement, including the membership aspirations of 
Bosnia and Herzegovina, Georgia, and Macedonia. The process of 
enlargement is aimed at extending the zone of security and stability.
    Finally, I would like to take this opportunity to underline 
Poland's contribution to the North Atlantic Alliance and development of 
our own capabilities. Poland takes an active part in NATO operations 
(Resolute Support, KFOR), assigns forces for actions of the Baltic Air 
Policing, contributes to assurance measures in the Baltic states as 
well as provides Air Policing capabilities to Romania and Bulgaria. We 
are also one of the framework countries of the Very High Readiness 
Joint Task Force. We have hosted on our territory the largest and the 
most important exercises of the Alliance, such as ``Noble Jump 2015,'' 
``Brilliant Jump 2016'' or earlier ``Steadfast Jazz 2013,'' and every 
two years we organize ``Anaconda''--the largest exercise in the region. 
Anaconda exercises 2016 have just finished. I would like to thank the 
United States for their considerable contribution to this exercise. 
Poland regularly assigns commands and subunits to the NATO Response 
Force, where in 2015 it commanded a component of special forces, and in 
2016 commands the forces of defense against weapons of mass 
destruction. Poland also fulfils art. 3 of the Washington Treaty 
according to which Allies are obliged to constantly develop their 
national armed forces. Poland is investing substantially in its own 
defense with a contribution of 2% GDP, including over 20% on technical 
modernization. Additionally, in the spirit of solidarity with those 
Allies who feel threatened at the southern flank, we have decided to 
participate in the operation Inherent Resolve constituting part of a 
larger effort of the Global Coalition against the Daesh. We will send 4 
F-16s and 150 support crew to Kuwait to provide additional 
reconnaissance capabilities as well as 60 soldiers to train Iraqi 
forces. This contribution, even if it is not implemented within NATO 
framework, underlines Poland's practical commitment to the 360 degrees 
approach and indivisibility of security.
    My remarks only mention a part of the NATO adaptation process and 
expected summit outcomes. I am ready to discuss the rest in the Q&A 
session.
    Thank you very much.

Maciej Pisarski is the Deputy Chief of Mission at the Polish Embassy in 
Washington, DC. Mr. Pisarski has spent a considerable portion of his 
professional career working on Polish-American relations; prior to 
assuming his current post in 2010, he was the deputy director of the 
Department of the Americas in the Polish Ministry of Foreign Affairs, 
Political Officer at the Embassy of Poland in Washington, DC, and U.S. 
desk officer at the Foreign Ministry in Warsaw. Before entering the 
Foreign Service, he worked at the Polish Agency for Foreign Investment 
as a research officer. Mr. Pisarski is a graduate of Warsaw University 
History Department where he majored in 20th century Polish-Jewish 
relations and of the National Academy for Public Administration in 
Warsaw. He has authored several publications, including the section on 
``Polish-American relations'' in the Yearbook of Polish Foreign Policy, 
and studies on the history and culture of Jews in Poland after 1945. He 
is married and has two children. 


    NATO is anything but obsolete. It is needed more now than at any 
point since the end of the Cold War. Threats and challenges to the 
transatlantic partners have multiplied rapidly. But there is growing 
insularity and division on both sides of the Atlantic. European defense 
capabilities are inadequate for the tasks. Risks are growing in Asia as 
well which deflect attention from Europe.
    NATO's leaders are trying to manage these centrifugal forces. NATO 
has demonstrated its historic ability to adapt to geo-strategic change. 
NATO is adapting again today but the pace of institutional change is 
lagging behind the pace of those new challenges. The 2014 Wales Summit 
began to close that gap by reassuring Allies with regard to mutual 
defense.
    We have an opportunity at the Warsaw Summit to close that gap 
further by enhancing full spectrum deterrence. Planning for the summit 
seems to be going well. There are seven important areas in which the 
Warsaw Summit needs to make progress.

1. Maintaining Alliance unity.

    <bullet>  The EU is facing an existential crisis; nationalistic 
populist movements are growing everywhere, there are widely different 
threat perceptions; Europeans do not spend nearly enough on defense.
    <bullet>  The summit must maximize unity of purpose. Threats need 
to be clearly recognized. Spending pledges need to be honored. Full 
spectrum defense and deterrence needs to be stressed.
    <bullet>  The EU decision to continue sanctions on Russia will help 
to maintain unity.

2. Moving from reassurance to deterrence in the East.

    <bullet>  At the Wales Summit, the focus was on reassurance and on 
the development of small rapidly deployable forces. The so-called 
Readiness Action Plan (RAP) was agreed. At Warsaw the RAP will be 
declared fully implemented. This include creation of the Very High 
Ready Joint Task Force (VJTF) or spearhead force, an expanded NATO 
Response Force (NRF), enhanced exercises, and some prepositioning of 
equipment. The American European Reassurance Initiative (ERI) is one of 
America's contributions to this effort, and its budget has quadrupled.
    <bullet>  At Warsaw, the focus will be on forward deployment to 
deter more effectively. NATO Secretary General Jens Stoltenberg has 
already announced that four multinational battalions will be deployed 
one each in the Baltic States and Poland. The lead nations will be 
Germany, the UK, the US, and hopefully Canada.
    <bullet>  In addition, the US will have a third Brigade Combat Team 
(heavy armored) deployed to Europe on a heel-to-toe rotational basis. A 
fourth US BCT will have its equipment prepositioned in Europe. Some of 
our Eastern allies would like to have these forces and equipment 
deployed even further forward than current plans call for.
    <bullet>  Additional efforts are expected to enhance deterrence. 
The Romanians will develop a new framework-nation NATO brigade. Baltic 
Air Policing will be strengthened. A new maritime focus will be placed 
on the Baltic and Black Seas.
    <bullet>  Efforts are also underway to reduce the obstacles to the 
rapid deployment of forces from Western Europe to the east and to find 
the right balance of authorities for SACEUR in time of crisis.
    <bullet>  Modest forward deployed forces and a rapid reaction 
capability will strengthen deterrence without being provocative.
    <bullet>  But more will be needed. NATO's follow on forces are 
inadequate. The summit needs to address force readiness and 
sustainability on both sides of the Atlantic.
    <bullet>  As these steps are taken, we also need to maintain a 
steady dialogue with Russia to make sure that they do not miscalculate.

3. Assuring a credible nuclear deterrence against Russia and missile 
defense against Middle East threats. Russia is strengthening its non-
strategic nuclear weapons posture in Europe and modifying its nuclear 
doctrine in dangerous ways (escalate to de-escalate).

    <bullet>  Discussing nuclear deterrence publicly in Europe is still 
very sensitive. But the summit needs to criticize Russian nuclear 
developments and reaffirm NATO's nuclear deterrence.
    <bullet>  Some positive steps will be taken at the summit to 
strengthen the readiness and reliability of NATO's dual capable 
aircraft.
    <bullet>  Efforts are also needed to consider nuclear policies 
during conventional military exercises.
    <bullet>  A serious dialogue with Russia on nuclear doctrine is now 
imperative.
    <bullet>  NATO missile defense is on track. At the summit, initial 
operating capability for the current phase of NATO missile defense is 
likely to be declared.

4. Creating a new Southern Strategy for NATO.

    <bullet>  NATO leaders talk about ``projecting stability'' into the 
southern region. Our recent report, Alliance Revitalized, suggested a 
strategy of ``comprehensive support.''
    <bullet>  NATO has had significant involvement to its south, for 
example: ISAF in Afghanistan, Operation Unified Protector in Libya, 
Operation Active Endeavor in the Mediterranean, Operation Ocean Shield 
off the coast of Somalia, Iraq training missions, missile defense for 
Turkey and other southern allies, etc. But it still does not have an 
agreed coherent southern strategy.
    <bullet>  The migration crisis and ISIS-stimulated terrorist 
attacks are of primary concern to most southern and western European 
allies.
    <bullet>  The Iraq and Afghanistan conflicts have created a lack of 
willingness to once again involve large numbers of ground forces in 
Middle East stabilization operations.
    <bullet>  To the extent that nations are willing to be involved, 
they tend to support lead nation operations rather than NATO led 
operations.
    <bullet>  So often NATO finds itself in a supporting rather than 
lead role. The Alliance is not used to this.
    <bullet>  Nonetheless, some progress should be made at the Warsaw 
Summit.
    <bullet>  Four bases in Afghanistan will likely remain to sustain 
Operation Resolute Support. Europe is likely to sustain adequate troop 
contributions.
    <bullet>  NATO training for Iraqi forces will be expanded and moved 
from Jordan to Iraq.
    <bullet>  NATO AWACS will fly in support of counter-ISIS 
operations.
    <bullet>  NATO is considering ways to support Italian led coalition 
operations in Libya, though modestly.
    <bullet>  American ships will support NATO maritime operations in 
the Aegean.
    <bullet>  NATO will support the EU Operation Sophia in the central 
Mediterranean Sea.
    <bullet>  Developing a coherent strategy to recognize the multiple 
challenges coming from the south and to knit together a consistent 
approach would be a significant step forward.

5. Maximizing societal and defense resilience.

    <bullet>  NATO faces different types of hybrid warfare on its 
eastern and southern fronts.
    <bullet>  Enhancing societal and defense resilience is the antidote 
to hybrid warfare. NATO has a key role to play in maximizing 
resilience.
    <bullet>  The Warsaw Summit is expected to focus on enhancing the 
resilience of allied nations. The starting point is Article 3 of the 
Washington Treaty which stresses self help and individual capacity.
    <bullet>  The summit is likely to pledge commitments from the NATO 
nations to strengthen their resilience. The summit is also likely to 
endorse the creation of what might be called resilience support teams 
that could be deployed to NATO countries in need.
    <bullet>  Cyber security is also an important aspect of resilience.
    <bullet>  The summit is likely to declare that cyber operations are 
a separate military domain and to seek cyber security pledges from all 
members states. This could result in a separate NATO cyber headquarters 
and in more effective NATO cyber operations.

6. Maintaining the open door and enhancing partnerships.

    <bullet>  Montenegro will be invited to join NATO at the summit. 
This will underline the fact that NATO's door remains open. But four 
aspirants still seek membership (Ukraine, Georgia, Macedonia and 
Bosnia) and they may need to wait a while longer.
    <bullet>  New measures to support defense reform in Ukraine will be 
agreed.
    <bullet>  Closer cooperation between NATO and the EU will be 
encouraged, especially in areas like maritime operations and societal 
resilience.
    <bullet>  Additional steps should be taken to bring Sweden and 
Finland even closer to the alliance. This could be done by increasing 
the privileges of Enhanced Opportunity Partners (EOP). Sweden and 
Finland should have access to all NATO meetings and exercises that they 
want to participate in.
    <bullet>  Japan is quite interested in becoming a NATO Enhanced 
Opportunity Partner, and this should be agreed at the summit. Then 
South Korea should be given equal status so that all three of America's 
key Asian allies have closer ties to NATO. Australia already enjoys EOP 
status. That would tie European and Asian security closer together.
    <bullet>  Finally, NATO needs to better organize itself to build 
the defense capacities of key vulnerable partners in Eastern Europe and 
the Middle East.

7. Increasing European defense spending and creating greater defense 
efficiencies.

    <bullet>  The renewed burden-sharing debate in the US has taken on 
monumental importance and the summit needs to take steps to recognize 
this.
    <bullet>  The slide in European defense spending of the last few 
years has been reversed. Twenty allies are planning to increase defense 
spending in real terms in 2016.
    <bullet>  But progress towards the 2% of GDP defense spending goal 
remains slow. The pledge needs to be reinforced and specific plans need 
to be created to implement that pledge.
    <bullet>  The summit should also further encourage the so-called 
framework nation concept which creates greater European defense 
efficiencies.
    <bullet>  Finally, defense innovation also needs to be encouraged. 
Allied Command Transformation is taking specific steps to work more 
closely with the Pentagon in an effort to stimulate transatlantic 
innovation.

    Significant progress is expected at the Warsaw Summit. But more 
needs to be accomplished in the years to come. This is not the time for 
complacence in the most successful alliance that the world has ever 
seen. It is time for nations on both sides of the Atlantic to double 
down on NATO and strengthen what has become the most important 
international institution for global stability.

Dr. Hans Binnendijk is a Senior Fellow at the SAIS Center for 
Transatlantic Relations. Until July 4, 2012, he was the Vice President 
for Research and Applied Learning at the National Defense University 
and Theodore Roosevelt Chair in National Security Policy. He previously 
served twice on the National Security Council staff. He has also served 
as Principal Deputy Director of the State Department's Policy Planning 
Staff and as Legislative Director of the Senate Foreign Relations 
Committee. He has received three Distinguished Public Service Awards 
and a Superior Service Award. In academia, Dr. Binnendijk was Director 
of the Institute for the Study of Diplomacy at Georgetown University 
and Deputy Director and Director of Studies at London's International 
Institute for Strategic Studies. He is author or co-author of more than 
100 articles, editorials and reports. His most recent book is Friends, 
Foes, and Future Directions, published by RAND (2016). Dr. Binnendijk 
serves as Vice Chairman of the Board of the Fletcher School of Law and 
Diplomacy and was Chairman of the Board of Humanity in Action.
 
 
 
                                       [all]
                                       
                                       
                                       
  
        This is an official publication of the Commission on
                    Security and Cooperation in Europe.

                                 * * *

                  This publication is intended to document
                  developments and trends in participating
                  States of the Organization for Security
                     and Cooperation in Europe (OSCE).

                                 * * *

           All Commission publications may be freely reproduced,
            in any form, with appropriate credit. The Commission
            encourages the widest possible dissemination of its
                               publications.

                                 * * *

                      www.csce.gov              @HelsinkiComm

                 The Commission's Web site provides access
                 to the latest press releases and reports,
                as well as hearings and briefings. Using the
         Commission's electronic subscription service, readers are
            able to receive press releases, articles, and other
          materials by topic or countries of particular interest.

                          Please subscribe today.





        
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
